               September 30, 1998


               ALLEN R. KANE
               CHIEF MARKETING OFFICER
               AND SENIOR VICE PRESIDENT

               Subject: Stamp Services (FA-MA-98-001)

               In June 1998, members of the Office of Inspector General (OIG) staff
               visited the Stamp Fulfillment Services Center (SFSC) and the Stamp
               Distribution Network (SDN) located in Kansas City, Missouri. This is
               a Management Advisory Report that highlights the results of that
               review.

               The overall objectives of our review were to determine if adequate
               controls existed over stamp inventories and to determine if corrective
               actions had been taken for issues identified in OIG Management
               Advisory Report RG 98-001.

               To accomplish our objectives, we toured both facilities and
               interviewed key personnel to obtain an overview of operations. We
               discussed the stamp destruction process and performed a limited
               review of inventory procedures utilized at both locations. In addition,
               we verified whether the corrective actions implemented by local
               management for OIG Report RG-98-001 had been completed. Our
               review was conducted during the period June 8-12, 1998 in
               accordance with generally accepted government auditing standards.
               We tested management controls over stamp inventories to the extent
               deemed necessary.

BACKGROUND 	   The SFSC is designed to service the needs of USPS’ philatelic
               customers. The SFSC maintains a stamp inventory with a retail value
               of $500 million and generates sales of approximately $60 million
               annually.

               The SDN is a separate facility adjacent to the SFSC. Personnel at the
               SDN:

               •	 Provide stamps (with a retail value of $1 billion at the time of our
                  review) to 3,500 post offices in 4 states.
Stamp Services	                                                                                  FA-MA-98-001


                                  •	 Destroy discontinued and obsolete stamp stock (with a retail value
                                     of $1.3 billion as of the date of our review) redeemed by post
                                     offices in the 4 states.

                                  •	 Distribute “Celebrate the Century” stamps and new “H” stamps1,
                                     and maintain the National Stamp Depository (with a retail value of
                                     $100 million as of the date of our review).

                                  In recent years, neither the SFSC nor the SDN had received extensive
                                  audit coverage. In fact, the USPS Inspection Service had not audited
                                  either facility in the last 5 years.

Review Results	                   Management officials have taken steps to implement a system of
                                  internal controls over stamp inventories. Specifically, SFSC
                                  management personnel had established procedures to perform
                                  statistical inventory cycle counts on a daily basis, and perform a
                                  complete inventory each August. SDN personnel perform a
                                  combination of quarterly and accounting period inventories to test the
                                  accuracy of stamp stock.

                                  Our review disclosed that SFSC and SDN personnel took adequate
                                  actions to implement suggestions identified in Management Advisory
                                  Report RG-98-001. Specifically, SFSC personnel completed
                                  renovations of the camera monitoring station. In addition, SDN
                                  personnel have taken actions to address the timely destruction of
                                  obsolete stamps.

                                  We did identify one area of concern during this review. Specifically,
                                  SFSC management personnel had not established formal inventory
                                  discrepancy thresholds. Instead, management personnel were
                                  exercising their "professional judgment" as to which discrepancies
                                  identified during daily or annual inventory counts warranted further
                                  review. If officials are permitted to subjectively determine which
                                  discrepancies will be reviewed, there is no assurance that serious
                                  discrepancies will be evaluated. In addition, officials acknowledged
                                  that under the current method they are not always able to identify the
                                  root cause of discrepancies. We believe that predetermined thresholds
                                  would ensure that (1) discrepancies are objectively selected for further
                                  research and corrective actions, and (2) resources could be devoted to
                                  more serious discrepancies in order to identify root causes.

Recommendation 	                  We recommend that the Manager, SFSC, establish inventory
                                  discrepancy thresholds (either dollar value or percentage, or a
                                  combination thereof) for SFSC inventory items. Those items

1
    “H” stamps are nondenominational stamps printed in anticipation of the next rate increase.

                                                           2
                                                Restricted Information
Stamp Services	                                                    FA-MA-98-001


                  exceeding the discrepancy threshold should be researched to identify
                  the root cause and appropriate corrective actions.

Management 	      The Acting Manager, Stamp Fulfillment Services, agreed to
Comments          implement our suggestion of establishing discrepancy thresholds for
                  SFSC inventory items. The Acting Manager's comments are included
                  as Attachment 1.


Evaluation of     The acting manager's comments are responsive to the suggestion
Management        identified in the report.
Comments


                  We appreciate the cooperation and courtesy showed to the OIG staff
                  during the review. If you have any questions or need additional
                  information, please contact               , or me at (703) 248-2300.



                  Colleen A. McAntee
                  Assistant Inspector General
                     Performance



                  cc:




                                        3
                             Restricted Information
Stamp Services                                FA-MA-98-001




Major Contributors
to this Report




                                4
                     Restricted Information
Stamp Services                            FA-MA-98-001




                            5
                 Restricted Information
